IN THE SUPREME COURT OF THE UNITED STATES
JERRY DOUGLAS, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PURSUANT TO Rule 39 of the Rules of the Supreme Court of the United
States, Petitioner, Jerry Douglas, Jr., asks leave to file the accompanying Petition
for Writ of Certiorari to the United States Court of Appeals for the Fourth Circuit
without payment of costs and to proceed in forma pauperis and in support thereof
states:
1.

The Petition for Certiorari in the form prescribed by Rule 14 of the
Rules of this Court, with Appendix attached, is submitted for filing
along with this Motion.

2.

The undersigned attorney was appointed by the Fourth Circuit Court
of Appeals on July 14, 2020 to represent petitioner on his appeal to the
Fourth Circuit Court of Appeals in 20-4361.

This the 23rd day of June, 2021.
Respectfully Submitted,
Jerry Douglas, Jr.
/s/ George E. Crump, III
George E. Crump, III
Counsel of Record, NCSB #7676
PO Box 1523
Rockingham, NC 28380
(910) 997-5544
georgecrump@bellsouth.net

